   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Office of Audit Services
                                                                       Region I
                                                                       John F. Kennedy Federal Building
                                                                       Room 2425
                                                                       Boston, MA 02203
                                                                       (617) 565-2684

July 21, 2010

Report Number: A-01-09-00011

Brenda M. Harvey
Commissioner
Department of Health and Human Services
221 State Street
State House Station 11
Augusta, Maine 04333

Dear Commissioner Harvey:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Disproportionate Share Hospital
Payments Made by Maine to the Riverview Psychiatric Center. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-09-00011 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services



Enclosure
Page 2 – Brenda M. Harvey


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF MEDICAID
  DISPROPORTIONATE SHARE
 HOSPITAL PAYMENTS MADE BY
  MAINE TO THE RIVERVIEW
    PSYCHIATRIC CENTER




                      Daniel R. Levinson
                       Inspector General

                          July 2010
                        A-01-09-00011
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Section 1923 of the Social Security Act, as amended, requires States to make additional
Medicaid disproportionate share hospital (DSH) payments to hospitals that serve
disproportionately large numbers of low-income patients. The Omnibus Budget Reconciliation
Act of 1993 limits these payments to a hospital’s uncompensated care costs, which are the annual
costs incurred to provide services to Medicaid and uninsured patients less payments received for
these patients. This limit is known as the hospital-specific DSH limit. In addition, a Centers for
Medicare & Medicaid Services (CMS) letter to State Medicaid Directors (1994 CMS letter)
stated that the cost of services included in a hospital’s DSH limit could not exceed the amount
that would be allowable under Medicare principles of cost reimbursement.

States have considerable flexibility in defining their DSH payments under sections 1923(a) and
(b) of the Social Security Act. Each State prepares a State plan that defines how it will operate
its Medicaid program, including the DSH program, and submits the plan to CMS for approval.

The Maine Department of Health and Human Services (the State agency) administers
MaineCare, the Maine Medicaid program. Pursuant to the State plan, DSH payments made to an
institution for mental diseases (IMD) are limited to the costs of services furnished to MaineCare
members and individuals with no source of third-party coverage, minus payments received for these
services. The Riverview Psychiatric Center (Riverview) is a state-operated IMD located in
Augusta, Maine. The State agency claimed DSH payments made to Riverview totaling
$24,592,248 ($15,524,476 Federal share) for State fiscal year (FY) 2007 and $27,635,823
($17,493,300 Federal share) for FY 2008.

OBJECTIVE

Our objective was to determine whether the DSH payments that the State agency made to
Riverview and claimed for FYs 2007 and 2008 exceeded the hospital-specific DSH limits
imposed by Federal requirements and the State plan.

SUMMARY OF FINDINGS

The DSH payments that the State agency made to Riverview and claimed for FY 2007 did not
exceed the hospital-specific DSH limit imposed by Federal requirements and the State plan.
However, the DSH payments claimed for FY 2008 exceeded the hospital-specific DSH limit by
$2,115,874 ($1,339,349 Federal share). Specifically, the State agency did not limit allowable
costs (1) to costs incurred by Medicaid and uninsured patients and (2) to costs associated with
beds certified for Medicare participation.

We attribute the excess DSH payments to the State agency’s lack of policies and procedures to
ensure that the DSH payments made to Riverview did not exceed the hospital-specific DSH
limits imposed by Federal requirements and the State plan.



                                                 i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,339,349 to the Federal Government,

   •   work with CMS to review DSH payments claimed after our audit period and refund any
       overpayments, and

   •   establish policies and procedures to ensure that it complies with Federal requirements and
       the State plan in calculating future hospital-specific DSH limits.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Medicaid Disproportionate Share Hospital Program ...................................1
              Maine Disproportionate Share Hospital Program ........................................1
              Institutions for Mental Diseases...................................................................1
              Riverview Psychiatric Center ......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          PROGRAM REQUIREMENTS ..............................................................................3
              Hospital-Specific Disproportionate Share Hospital Limits .........................3
              Program Participation Requirements ...........................................................4

          CALCULATIONS OF HOSPITAL-SPECIFIC DISPROPORTIONATE
           SHARE HOSPITAL LIMITS ...............................................................................4

          PAYMENTS CLAIMED IN EXCESS OF HOSPITAL-SPECIFIC
           DISPROPORTIONATE SHARE HOSPITAL LIMITS .......................................5

          LACK OF POLICIES AND PROCEDURES .........................................................5

          RECOMMENDATIONS .........................................................................................5

          STATE AGENCY COMMENTS ............................................................................6

APPENDIXES

          A: STATE AGENCY’S DISPROPORTIONATE SHARE HOSPITAL
             LIMIT CALCULATION FOR STATE FISCAL YEAR 2008 AND OFFICE
             OF INSPECTOR GENERAL’S RECALCULATION

          B: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Medicaid Disproportionate Share Hospital Program

The Omnibus Budget Reconciliation Act of 1981 established the disproportionate share hospital
(DSH) program, which is codified in section 1923 of the Act. This section requires State
Medicaid agencies to make additional payments to hospitals that serve disproportionately large
numbers of low-income patients. Sections 1923(a) and (b) of the Act give States considerable
flexibility in defining their DSH programs.

The Omnibus Budget Reconciliation Act of 1993 requires States to limit DSH payments made to
individual hospitals to each hospital’s uncompensated care costs, which are the annual allowable
costs that the hospital incurs for providing services to Medicaid and uninsured patients less any
payments that the hospital receives for these patients. This limit is known as the hospital-
specific DSH limit. A CMS letter to State Medicaid Directors dated August 17, 1994 (1994
CMS letter) clarified the DSH provisions of the Omnibus Budget Reconciliation Act of 1993.
The letter stated that the cost of services included in a hospital-specific DSH limit could not
exceed the amount that would be allowable under Medicare principles of cost reimbursement.

Maine Disproportionate Share Hospital Program

The Maine Department of Health and Human Services (the State agency) administers
MaineCare, the Maine Medicaid program. The Federal Government pays its share of Medicaid
expenditures, including DSH expenditures, according to a formula established in section 1905(b)
of the Act. That share is known as the Federal medical assistance percentage (FMAP). The
FMAP in Maine was approximately 63 percent during our audit period. Pursuant to the State plan,
DSH payments made to an institution for mental diseases (IMD) are limited to the costs of services
furnished to MaineCare members and individuals with no source of third-party coverage, minus
payments received for these services.

Institutions for Mental Diseases

Section 1905(i) of the Act defines an IMD as a hospital, nursing facility, or other institution of
more than 16 beds that is primarily engaged in providing diagnosis, treatment, or care of persons


                                                1
with mental diseases. Psychiatric hospitals (including State-operated psychiatric hospitals) with
more than 16 beds are considered IMDs.

Riverview Psychiatric Center

The Riverview Psychiatric Center (Riverview) is a state-operated IMD located in Augusta,
Maine. It has 92 beds, of which 86 are certified for Medicare participation. Riverview provides
support, treatment, and care, including intensive 24-hour inpatient psychiatric services, to adults
with severe mental illness. The State agency claimed DSH payments made to Riverview totaling
$24,592,248 ($15,524,476 Federal share) for State fiscal year (FY) 2007 and $27,635,823
($17,493,300 Federal share) for FY 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the DSH payments that the State agency made to
Riverview and claimed for FYs 2007 and 2008 exceeded the hospital-specific DSH limits
imposed by Federal requirements and the State plan.

Scope

We reviewed DSH payments totaling $52,228,071 ($33,017,776 Federal share) that the State
agency made to Riverview and claimed for FYs 2007 and 2008.

Our objective did not require an understanding or assessment of the State agency’s complete
internal control structure. We limited consideration to those controls related to the State
agency’s methodology for determining hospital-specific DSH limits, processing claims, and
determining subsequent reimbursements.

We performed our fieldwork at the State agency in Augusta, Maine, from October 2009 to April
2010.

Methodology

To accomplish our audit objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance and the CMS-approved State
        plan;

   •    interviewed officials from CMS, the State agency, Maine’s fiscal intermediary, and
        Riverview;

   •    reconciled the DSH payments that the State agency claimed during FYs 2007 and 2008
        on Form CMS-64, “Quarterly Medicaid Statement of Expenditures for the Medical
        Assistance Program,” to the State agency’s detailed accounting records;

                                                  2
   •   reviewed the State agency’s methodology for calculating hospital-specific DSH limits;

   •   traced total costs included in the hospital-specific DSH limit calculations to the hospital cost
       reports and other supporting documentation; and

   •   evaluated total costs included in the hospital-specific DSH limit calculations for the audit
       period to determine whether they were reasonable and allowable for Federal reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

The DSH payments that the State agency made to Riverview and claimed for FY 2007 did not
exceed the hospital-specific DSH limit imposed by Federal requirements and the State plan.
However, the DSH payments claimed for FY 2008 exceeded the hospital-specific DSH limit by
$2,115,874 ($1,339,349 Federal share). Specifically, the State agency did not limit allowable
costs (1) to costs incurred by Medicaid and uninsured patients and (2) to costs associated with
beds certified for Medicare participation.

We attribute the excess DSH payments to the State agency’s lack of policies and procedures to
ensure that the DSH payments made to Riverview did not exceed the hospital-specific DSH
limits imposed by Federal requirements and the State plan.

PROGRAM REQUIREMENTS

Hospital-Specific Disproportionate Share Hospital Limits

Section 1923(g)(1)(A) of the Act states that DSH payments to a hospital may not exceed:

       . . . the costs incurred during the year of furnishing hospital services (as
       determined by the Secretary and net of payments under this title [Title XIX],
       other than under this section, and by uninsured patients) by the hospital to
       individuals who either are eligible for medical assistance under the State plan or
       have no health insurance (or other source of third party coverage) for services
       provided during the year.




                                                   3
The Maine State plan, Attachment 4.19-A, page 9, effective July 1, 2006, incorporates these
same requirements by stating that DSH payments made to IMDs are limited to 100 percent of the
costs of services furnished to MaineCare members and uncompensated care services provided to
individuals with no source of third-party coverage, minus payments that the State agency made
for services furnished to MaineCare members.

CMS clarified the DSH provisions of the Omnibus Budget Reconciliation Act of 1993 in the
1994 CMS letter, in which it states:

          . . . in defining “costs of services” under this provision [the hospital-specific DSH
          limit], HCFA 1 would permit the State to use the definition of allowable costs in
          its State plan, or any other definition, as long as the costs determined under such a
          definition do not exceed the amounts that would be allowable under the Medicare
          principles of cost reimbursement . . . . HCFA believes this interpretation of the
          term “costs incurred” is reasonable because it provides States with a great deal of
          flexibility up to a maximum standard that is widely known and used in the
          determination of hospital costs.

Program Participation Requirements

CMS’s State Operations Manual, section 1000B, states that when services are furnished
through institutions that must be certified for Medicare, the institutional standards must
be met for Medicaid as well.

Federal regulations (42 CFR § 440.140(a) and sections 1905(a)(16), 1905(h)(1)(A), and
1861(f) of the Act) require IMDs to meet Medicare program participation requirements to
receive federally matched Medicaid funding. These regulations require hospitals that
participate in the Medicaid program to establish compliance with the basic Medicare
conditions of participation requirements that address issues such as licensing, quality of
care, safety, patient rights, self-assessment and performance improvement, service
availability, utilization and review, and other requirements that apply to all hospitals as
stated at 42 CFR §§ 482.1 through 482.57.

IMDs must meet these requirements before they can receive federally matched Medicaid
funding, including DSH payments.

CALCULATIONS OF HOSPITAL-SPECIFIC DISPROPORTIONATE
SHARE HOSPITAL LIMITS

The DSH payments that the State agency made to Riverview for FY 2008 exceeded the hospital-
specific DSH limit imposed by Federal requirements and the State plan. Specifically, the State
agency overstated its DSH limit calculation by including the following costs:

      •   Costs Not Incurred for Medicaid and Uninsured Patients. The State agency used data
          from the Medicare cost reports to determine the costs that were allowable under Medicare
1
    The Health Care Financing Administration, which is now CMS.

                                                       4
         cost principles. However, contrary to Federal requirements, these costs were not limited
         to the costs incurred by Medicaid and uninsured patients. Instead, the costs that the State
         agency used in the DSH limit calculations were incurred by all patients, including those
         covered by Medicare or private insurance.

         Costs Associated with Uncertified Beds. The State agency did not limit costs in the
         DSH limit calculations to those associated with Riverview’s 86 CMS-certified beds.
         Instead, contrary to Federal requirements, the total costs from the Medicare cost reports
         that the State Agency used in the DSH limit calculations were associated with all 92 beds.
         Six of Riverview’s beds were not certified for Medicare particpation because they were
         reserved for patients placed in administrative segregation. 2

We recalculated the hospital-specific DSH limit by determining the allowable costs from the
Medicare costs reports based on the percentage of the hospital’s total inpatient days that were
attributed to Medicaid and uninsured patients residing in CMS-certified beds.

PAYMENTS CLAIMED IN EXCESS OF HOSPITAL-SPECIFIC
DISPROPORTIONATE SHARE HOSPITAL LIMITS

As a result of overstating costs in its calculation of the hospital-specific DSH limit, the State
agency claimed a total of $2,115,874 ($1,339,349 Federal share) for DSH payments made to
Riverview during FY 2008 that exceeded the DSH limit imposed by Federal requirements and
the State plan. Appendix A contains summary information on the DSH limit calculation and
recalculation for FY 2008.

LACK OF POLICIES AND PROCEDURES

The State agency did not have policies and procedures to ensure that the DSH payments made to
Riverview did not exceed the hospital-specific DSH limits imposed by Federal requirements and
the State plan.

RECOMMENDATIONS

We recommend that the State agency:

    •    refund $1,339,349 to the Federal Government,

    •    work with CMS to review DSH payments claimed after our audit period and refund any
         overpayments, and

    •    establish policies and procedures to ensure that it complies with Federal requirements and
         the State plan in calculating future hospital-specific DSH limits.


2
 Administrative segregation is the temporary separation of a patient on forensic status from other patients and the
normal living environment for the purpose of maintaining safety and security while a transitional plan, including a
safety assessment, is completed.

                                                          5
STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as Appendix B.




                                               6
APPENDIXES
           APPENDIX A: STATE AGENCY'S DISPROPORTIONATE SHARE HOSPITAL
                      LIMIT CALCULATION FOR STATE FISCAL YEAR 2008 AND
                        OFFICE OF INSPECTOR GENERAL'S RECALCULATION

                                                                                      FY 2008                   FY 2008
                                                                                    State Agency                 OIG1
                                                                                     Calculation              Recalculation
A Total Allowable Costs
  Allowable Costs based on Medicare cost principles2                            $      31,725,006         $       31,725,006

B Allocation of Allowable Costs
  Days Attributed to Medicare, Privately Insured, and
   Patients Residing in Uncertified Beds                                                     5,266                      5,266
  Days Attributed to Medicaid and Uninsured Patients
   Residing in Certified Beds                                                               26,923                    26,923
  Total Inpatient Days                                                                      32,189                    32,189
  Total Inpatient Days Allocated to Medicaid and Uninsured
   Patients Residing in Certified Beds                                                      32,189                    26,923
        Percentage of Allocated Inpatient Days                                                100%                          84%
            Total Allocated Allowable Costs                                     $      31,725,006         $       26,534,914

C Less: Third Party Revenues
  Medicaid Reimbursement                                                        $         857,048         $        1,015,243
  Self-Pay Reimbursement                                                                        0                          0
  Medicare Reimbursement                                                                1,380,139                          0
  Private Insurance Reimbursement                                                         109,183                          0
      Total Revenue Offsets                                                     $       2,346,370         $        1,015,243

                       1
D DSH Limit Calculation
  DSH Limit (B - C)                                                             $      29,378,636         $       25,519,670
                               1,3
        Blended FMAP Rate                                                                  63.30%                     63.30%
           Total DSH Limit (Federal Share)                                      $      18,596,677         $       16,153,951

E DSH Payment
  State Agency DSH Payment (Federal Share)                                      $      17,493,300         $       17,493,300

F       Amount in Excess of/(Under) the DSH Limit (E- D)                        $       (1,103,377)       $        1,339,349

    1   OIG = Office of Inspector General.
        FMAP = Federal medical assistance percentage.
        DSH = Disproportionate Share Hospital.
    2   Per the hospital’s Medicare cost report: total costs from worksheet B, part I, column 27, line 95; hospital-based
        physician costs from worksheet A-8-2, column 4, line 101; and certified registered nurse anesthetists costs from
        worksheet A-8, column 2, line 40.
    3   There were two FMAP rates in effect for Maine during State fiscal year 2008: 63.27% for the first quarter and
        63.31% for the last three quarters. Therefore, we applied the average FMAP for the four quarters.
                                      APPENDIX B: STATE AGENCY COMMENTS
                                                                                             Page 1 of 2
                                                                      Department of Health and Human Services
                                                                                         Commissioner's Office
                                                                                       # 11 State House Station
                                                                                    Augusta, Maine 04333-0011
                                                                                             Tel: (207) 287-3707
                                                                         Fax: (207) 287-2601; TTY: 1-800-606-0215
John E. So/dace;' Governor   Brenda M. Harvey, Commissioner



        June 24, 2010


        Mr. Michael J. Armstrong, Regional Inspector General for Audit Services. 

        Office cif Audit Services, Region I          .

        John F. Kennedy Federal Building, Room 2425 

        Boston, MA 02203 


        Re: Review of Medicaid Disproportionate Share Hospital Payments Made by Maine to the
        Riverview Psychiatric Center- Draft Report Number A-01-09-00011

         Dear Mr. Armstrong:

        The Department of Health and Human Services (DHHS) appreciates the opportunity to respond
        to the above mentioned draft audit report. We offer the following comments in relation to the
        recommendations on Page 5 of this report.

         For your convenience, below we include the summary finding and list each recommendation
         followed by ourresponse. Each response includes the State's proposed corrective action plan
         which we believe will bring the State into compliance with Federal requirements.

         Finding:
         The Disproportionate Share Hospital (DSH) payments that the State agency made to Riverview
         and claimed for FY 2007 did not exceed the hospital-specific DSH limit imposed by Federal
         requirements and the State plan. However, the DSH payments claimed for FY 2008 exceeded
         the hospital-specific DSH limit by $2,115,874 ($1,339,349 Federal share). Specifically, the
         State agency did not limit allowable costs (1) to costs incurred by Medicaid and uninsured
         patients and (2) to costs associated with beds certified for Medicare participation.

         We attribute the excess DSH payments to the State agency's lack of policies and procedures to
         ensure that the DSH payments made to Riverview did not exceed the hospital-specific DSH
         limits imposed by Federal requirements and the State plan.

         Recommendation:
         Refund $1,339,349 to the Federal Government.

          Response:
          DHHS agrees with this recommendation. DHHS has discussed this issue with staff in the CMS
          Boston Regional Office. Based on that discussion, DHHS will return the 2008 overpayment of
          $1,339,349 and receive the 2007 underpayment of $418,568 identified during the exit
          conference which will be on the next CMS-64 Form filed after issuance of the final report.




                                                   Caring..Responsive..Well-Managed.. We are DHHS.
                                                                                              Page 2 of 2
Mr. Michael J. Armstrong
Page 2




         Recommendation: 

         Establish policies and procedures to ensure that it complies with Federal requirements and the 

         State plan in calculating future hospital-specific DSH limits. 


         Response: 

         DHHS agrees with this recommendation. DHHS is working with an independent external CPA 

         firm to refine the DSH limit calculations. Policies and procedures will be developed and 

         implemented. The State is planning to integrate the results of this work into the current 

         quarterly or annual IMD-DSH reporting to CMS. 


         Recommendation: 

         Work with CMS to review DSH payments claimed after our audit period and refund any 

         overpayments. 


         Response: 

         DHHS agrees with this recommendation. As the annual DSH limit calculations are filed (as 

         earlier noted), DHHS staff will work with personnel in the Boston Regional Office to return 

         overpayments, if any. 


         We appreciate the time spent in Maine by OIG staff reviewing Maine's Medicaid 

         disproportionate share hospital payments made to the Riverview Psychiatric Center. We 

         believe this effort will enable us to perform this function more accurately in the future. 



          Sincerely, 




          Brenda M. Harvey 

          Commissioner 

